UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 19-1876
Stanley J. Carter
Plaintiff - Appellant
v.
Wendy Kelley, Director, Arkansas Department of Correction
Defendant - Appellee
Appeal from U.S. District Court for the Eastern District of Arkansas - Pine Bluff
(k: 17-cv-00069-JTR)

JUDGMENT
Before BENTON, ERICKSON, and STRAS, Circuit Judges.
This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The motion for appointment of counsel is
denied and the motion to proceed on appeal in forma pauperis is also denied. The appeal is
dismissed.
February 06, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-1876
\

Stanley J. Carter
Appellant
v.
Wendy Kelley, Director, Arkansas Department of Correction
Appellee

Appeal from U.S. District Coitirt for the Eastern District of Arkansas - Pine Bluff
(5:17-CV-00069-JTR)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
March 20, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Cans

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-1876
Stanley J. Carter
Appellant
v.
Wendy Kelley, Director, Arkansas Department of Correction
Appellee

Appeal from U.S. District Court for the Eastern District of Arkansas - Pine Bluff
(5:17 -cv-00069-JTR)
MANDATE
In accordance with the judgment of 02/06/2020, and pursuant to the provisions of Federal
Rule of Appellate Procedure 41(a), the formal mandate is hereby issued in the above-styled
matter.
March 27, 2020

Clerk, U.S. Court of Appeals, Eighth (pircuit

i

Case: 5:17-cv-00069-JTR

i

Docunherit #:• 25-0

Date Filed: 03/26/2019

Page 1 of 45

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
STANLEY J. CARTER
ADC #111939
V.

PETITIONER
NO. 5:17-CV-00069-JTR

WENDY KELLEY, Director,
Arkansas Department of Correction

RESPONDENT

MEMO RANDUMOPINION
Pending before the Court' if a 28 U.S.C. § 2254 Petition for Writ of Habeas
Corpus filed by Stanley Carter (“C arter ), an inmate in the Arkansas Department of
Correction (“ADC”). Doc. 2. Before addressing Carter’s habeas claims, the Court
will review the procedural history of the case in state court.
I| Background
!

On July 24, 2013, a Crittenden County jury convicted Carter on three
counts of rape. Trial Transcript, Doc. 13-6 at 82. The victims of those

separate

rapes were

three children: “As.L. (age nine)j An.L. (age eight); and S.H. (age six)." On
September 16, 2013, Carter received a life sentence for raping As.L. and two 50

14.

The parties have consented to proceeding before a United States Magistrate Judge. Doc.

Case: 5:17-cv-00069-JTR

Docurrent #: 25-0

Date Filed: 03/26/2019

Page 2 of 45

year sentences for raping An.L. and S.H. The Sentencing Order specified that the
sentences were imposed consecutively.2 Doc. 13-2 at 83-85.
In his direct appeal, Carter’s only argument was that the trial court erred in
denying his motion to dismiss based on a violation of Rule 28.1 of the Arkansas
Rules of Criminal Procedure (“the Arkansas speedy trial rule”). Carter v. State, 2016
i
i

Ark. 152, at 4-5, 484 S.W.3d (j>73, 675-676 {Carter I). On April 7, 2016, the
I

Arkansas Supreme Court concluded that the Arkansas speedy trial rule was not
violated and affirmed Carter’s cohvietion.3
On April 14, 2016, Carter received a letter from his appeal counsel, Lee
|

Short,4 enclosing a copy of the Court’s decision in Carter I. Doc. 8 at 28. In his letter
to Carter, Mr. Short stated the following:
I
!
2 During Carter’s sentencing, th,e trial judge stated: “So on the count involving [As.L.], you
have life ... On each of the other two fcounts, I’m sentencing you to 50 years. Those 50 years run
consecutive with one another and concurrent with life.” Doc. 13-5 at 21. However, Carter’s
Sentencing Order states that all three sentences run consecutive to each another. Doc. 13-2 at 8385. This apparent scrivener’s error is of little practical significance given Carter’s life sentence,
which in Arkansas means life, without the possibility of parole, unless the Governor grants
clemency and commutes Carter’s sentence to a term of years. See Hobbs v. Turner, 2014 Ark. 19,
7, 431 S.W.3d 283, 287 (2014).
3 While acknowledging that thjs trial court erred in its speedy trial calculation, the Court
found other excludable time the trial court had not considered. When that additional time was
properly included in the correct calculation, the Court held there was no violation of the Arkansas
speedy trial rule. Carter 1, 2016 Ark. 152, at 4-5, 484 S.W.3d at 675-676.
4 Carter’s trial counsel was Shaun Hair (“Mr. Hair”). After he had difficulty filing a
submissible Appellant’s Brief on beha lf of Carter, the Arkansas Supreme Court relieved him as
appellate counsel, ordered rebriefing, and appointed Mr. Short to represent Carter in his direct
appeal. See Carter v. State, 2015 Ark. 259, at 2.

2

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 3 of 45

... I do not believe [the Arkansas Supreme Court is] correct
factually or legally; therefore, I will file a petition for
rehearing. The State will respond. The Court will likely issue
a decision on that petition in approximately two months. I will
notify you as soon as a decision is reached.
If we are unsuccessful in this appeal, then you will have 60
days to file a petition alleging ineffective assistance of counsel
with the Crittenden C oumty Circuit Court. The petition must
conform to Arkansas Rule of Criminal Procedure 37. You
should list anything you believe your trial counsel did
incorrectly or failed to do that could have produced a different
result.
Id. (emphasis added).
According to Carter, this letter was the last time he heard from Mr. Short. Doc.
8 at 2-3. Two months after receiving Mr. Short’s letter, Carter wrote the Office of
the Criminal Justice Coordinator par the Arkansas Supreme Court “concerning the
overall status of his direct appeal.]’ Doc. 8 at 2-3. In a letter, dated July 7, 2016, the
Justice Coordinator for the Court advised Carter that:
I

j

There was no petition for rehearing filed[.] The judgment was
affirmed on April 7, 2016. The final mandate was issued on
April 26, 2016. The cake is considered closed in the Arkansas
Supreme Court.
|
See Letter from Criminal Justice Coordinator to Carter, Doc. 8 at 30.
Arkansas law required Career to file a Rule 37 petition within sixty days of
the date the Arkansas Supreme Court issued its mandate affirming his convictions
on direct appeal. Ark. R. Crim. P. 37.2(c)(ii). Because day sixty fell on Saturday,
June 25, 2016, Carter was required to file a Rule 37 Petition on or before Monday,
3

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 4 of 45

June 27, 2016. Ark. R. Crim. P. j.4. It is undisputed that Carter never filed a Rule
37 Petition.5 As a result, none of the ineffective assistance of counsel claims he

now

seeks to assert in this action were ever raised and exhausted in a Rule 37 proceeding.
|II. Discussion
|

On March 20, 2017, Carter initiated this § 2254 habeas action and asserted the
following claims:

j

Claim 1: His trial counsel, Mr. Hair, provided ineffective
assistance of counsel by failing to adequately interview, subpoena, and
call defense witnesses. Doc. 8 at 17.
Claim 2: Mr. Hair provided ineffective assistance of counsel by
failing to request a continuance Or otherwise object to the Amended
Criminal Information filed bn the day before his trial began. Doc. 8 at
17-18.
!
Claim 3: Mr. Hair provided ineffective assistance of counsel by
failing to timely inform garter of allegedly “exonerating DNA
evidence and failing to seek independent experts to review the DNA
evidence. Doc. 8 at 16-17. j

f.. 5®y
t'me garter received the Justice Coordinator’s July 7, 2016 letter notifying him
and i« was too “££££^ “uffi^
™

4

Case: 5:17-cv-00069-JTR

Documjeni #: 25-0

Date Filed: 03/26/2019

Page 5 of 45

Claim 4: Mr. Hair prided ineffective assistance of counsel
on
direct appeal, by failing t3 ^rgue the evidence was insufficient to
support his rape convictions. /j>oc. 8 at 18-19.6
Claim 5. Carter s convictions “should be dismissed . . . because
the [t]rial [cjourt did not follo\jv the strict commands of Arkansas Rule
of Criminal Procedure 28.3(b)<l).” Doc. 2 at 2; Doc. 8 at 8-16.
Claim 6: Carter’s convections violated his Sixth Amendment
light to a speedy trial, as applied to his state court trial under the
Fourteenth Amendment’s DuejProcess Clause. Doc. 2 at 4\ Doc. 16 at
1 -5.
|
Respondent argues that Carter procedurally defaulted Claims 1 through 4 and
Claim 6, and all five of those claiims also are without merit. As to Claim 5
i

^

Respondent argues it raises an error of state law that is not cognizable under § 2254
Doc. 13.
Carter argues that: (1) his hal ?eds claims have merit; and (2) Mr. Short’s April
14, 2016 letter lulled him into believing Mr. Short had filed the Petition for
Rehearing, and, under the “cause and! prejudice” or “actual innocence” exceptions,
the Court should excuse his procedprail default and reach the merits of his claims.7

6 In rebriefing the direct appeal,
Short also did not challenge the sufficiency of the
evidence. Carter does not allege the same decision by Mr. Short also constituted ineffective
assistance of counsel.

2fSp.=SS|s=gs!
constitutional violation, or demonstrates th*t the failure to consider his claim will result in a
fundamental miscarriage of justice.” Id., 501 U.S. at 750.

5

;

■s

:

:

f

5

v

s’

:>•

hv

;

■5 i';;i

1

i

A-.

>

4. >

V’.

'r

t

:

*•:

■i

}

J
■■

i

%

.

i

5

7

a

i

i

\
. v

•1 :

i.

' :T-

i

0

<*

*

.t.

-;

<

1

r.

v.*:* ;t

.v

i

i

?

•;

i

.•*

h

■i i

'U

i

f

*

;

;

?

S‘

>.

t

S

:

f

\
i

r

r

Case: 5:17-cv-00069-JTR

Documeni #: 25-0

Date Filed: 03/26/2019

Page 6 of 45

For the reasons explained below, the Court concludes that all of Carter’s
habeas clams must be dismissed, With prejudice.
|

A.

:

Underlying Evidence Supporting Carter’s Rape Convictions
j

In 2012; nine-year-old As.L.,, eight-year-old An.L., and six-year-old S.H.,
lived with their grandmother, Samanjtha Smith, in a residence located at 724 South
10th Street, West Memphis, Arkarjsai8 Carter also resided at that address.

Doc. 8 at

20.
On the morning of May 24, 2012, the last day of school, a parent of another
child told the principal of Wonder pigmentary School that As.L. and An.L. said they
were being sexually abused. Doc. 13\4 at 20-23. The principal reported the alleged
abuse to Dionne Harris (“Ms. Haris’!), a counselor at Wonder Elementary School,
who immediately interviewed As.L. afid An.L. Id. at 25.9 Ms. Harris then called the
child-abuse hotline and reported the sexual abuse. Id. at 26-28.
At 3:15 p.m. on May 24, 20l|, Detective Michelle Sammis and Detective
Yvonne Peeler, with the West Menpiis Police Department, went to 724 South 10th
Street to investigate the allegation^ of sexual abuse. Trial Testimony of Detective
Sammis and Detective Peeler, Id. L 35-36,
> 136. When they arrived, As.L., An.L.,

As.L. and An.L. are sisters, and S. is their cousin. Doc. 13-4 at 88-89. Carter was the
only male living in the house during the relevant time period. Id. at 103.
Ms. Harris did not interview S.H.Ibecause she did not go to school on May 24, 2012.
Doc. 13-4 at 23.

6

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 7 of 45

and S.H., were sitting on the front porch. Id. at 36. The detectives tntroduced
themselves and began talking to the girls. Id. They conversed with the detectives and
did not seem afraid or intimidated. Id. at 137. After a few minutes, Carter
came
outside. All three girls immediately stopped talking. Id. at 36 and 137.
Detective Sammis told Carter they need to speak with him, and he agreed to
ride with the detectives to the police station for an interview. Doc. 13-4 at 36, 38 At
the station, Carter signed a consent form agreeing to provide saliva samples for DNA
testing. However, he exercised his right to a lawyer and declined to be interviewed.
Id. at 38-40. Detective Sammis toe »k swabs of Carter’s right and left cheek for DNA
testing. Id. at 41-42.
Later the same afternoon, Detective Peeler transported As.L., An.L., and S.H.
to the Rape Crisis Center in Memphis, Tennessee. Id. at 139. There, Dr. Amanda
Taylor took each child’s medical history, including a narrative of the alleged abuse,
and conducted physical examinations of each child. Dr. Taylor’s Trial Testimony,
Id. at 119-135.10
During As.L.’s interview, she told Dr. Taylor:
. . . Stan grabbed me by my leg, and pulled me in a room. He
put lotion on my middle part. He tell me if I screamed he was
going to abuse me. He put his middle part in my butt, and I ran
to the door, and he locke d it. He made me put my mouth on his
HA 7;7°I?ylor *** a doctorate in Nursing Practice with a specialty in forensics. Doc 13-4 at
at 121
hC °btamed C°nSent t0 eXamilie the §irls from their grandmother, Samantha Smith. Id.

7

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 8 of 45

middle part. White stuff came out, and I tried to go away but
he held my head and made me swallow the stuff.
Id. at 126.
During As.L.’s physical examination, Dr. Taylor noted, “in [As.L.’s] genital
area, she had a light pink thickened area like basically scar tissue at 11 to 12
o’clock[.]” Id. at 127. Dr. Taylor cbuld not say what caused the injury but found the
injury to be consistent with penetration by “something.” Id. at 128.n Because Dr.
Taylor could not determine how recently As.L. had sexual contact with Carter, she
did not collect a rape kit. Id. at 126.
Dr. Taylor then interviewed S.H., who told her:
Somebody called the pcjlice because Stan put lotion in this . . .
pointing to her vaginal jarea ... and put his middle part there.
Clarified middle part as his penis. He asked did it hurt, and I
said yes, and he kept doing it. He made me suck his middle
part. White lotion came but of the hole. He told me to stop, and
he went to the restroonji, and used a towel. He does it to my
grandma, and my cousips, I’ve seen him. He does it when my
sisters are at school, andj my grandma is at work. I’ve seen him
freak [As.L.] and [An.Li], and clarified freak as in the butt.
Id. at 129.
During her physical examinafion of S.H., Dr. Taylor did not note any injuries.
Id. at 133. However, Dr. Taylor collected a rape kit from S.H., because she had been
i
!

11 At trial, Dr. Taylor testified that a penis could have caused the injury but she
acknowledged that some other body part |>r an “object” could also have caused it. Id. at 127-128.
8

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 9 of 45

at the home alone with Carter earl ier that day while As.L. and An.L. were at school.
Id. at 129}2
Dr. Taylor then interviewed An.L., who told her:
Stan put lotion on him and me. He put his private part in my
butt. It hurt when he did it... it happened more than once, and
it was always in the bull
Id. at 133-134.
During her physical examination of An.L., Dr. Taylor did not note any
injuries. Id. Dr. Taylor did not co: lect a rape kit from An.L. because she could
not
determine her last sexual contact v ith Carter.
At trial, As.L. testified that, more than once while she lived with her
i

grandmother and Carter in West Memphis, Carter touched her chest, “middle part,”
and “booty” with his hand and his “middle part”.13 Doc. 13-4 at 99-100. She said
Carter played a movie of people “fir eaking” and told her to watch it. Id. at 110-111.14
She further testified that, more than once, Carter put his “middle part” in her mouth
and “white stuff’ came out into her mouth:

133.

Dr. Taylor collected vulvar swabs and S.H.’s underwear for DNA analysis. Id. at 13213 As.L. was 10 years old when she testified at Carter’s trial.

9

Case: 5:17-cv-00069-JTR

Document k: 25-0

Date Filed: 03/26/2019

Page 10 of 45

PROSECUTOR: Did hte louch you anywhere else with his
middle part?
AS.L.: Yes.
PROSECUTOR: Where?
AS.L.: My mouth.
PROSECUTOR: What did he do with his middle part?
AS.L.: He put it in my mouth.
PROSECUTOR: Did tljiat happen once, or more than once?
AS.L.: More than once.
PROSECUTOR: Where were you when that happened?
AS.L.: In the dining roc >m.
PROSECUTOR: At your house in West Memphis?
AS.L.: Yes, sir.
PROSECUTOR: Was ahybody else there7
AS.L.: No, sir.
PROSECUTOR: You aid Stan were by yourself?
AS.L.: Yes, sir.
PROSECUTOR: Did anything come out of his middle part?
AS.L.: Yes, sir.
j
PROSECUTOR: What <bame out?
AS.L.: White stuff.
PROSECUTOR: Where1 did it go?
AS.L.: In my mouth. |
Id. at 101-102.
Finally, As.L. testified that sheisaw Carter touch An.L.’s mouth and S.H.’s
mouth with his “middle part” more than once:

10

Case: 5:17-cv-00069-JTR

Document:#: 25-0

Date Filed: 03/26/2019

l

PROSECUTOR: Have you seen Stan touch somebody else
with his middle part?
AS.L.: (Nods head)
PROSECUTOR: Who did you see him touch?
AS.L.: My sister, and my cousin.
PROSECUTOR: What ’s your sister’s name?
AS.L.: [An.L.]
PROSECUTOR: And what did you see him do to her?
AS.L.: [An.L.] -1 really dbn’t remember.
PROSECUTOR: Did you see him with his middle touch part
[sic] touch [An.L.]?
AS.L.: Yes.
I
PROSECUTOR: Where diid he touch her?
AS.L.: In her mouth, j
PROSECUTOR: Did you see that once, or more than once?
AS.L.: More than once.
PROSECUTOR: Did you see him touch [S H p
AS.L.: Yes.
PROSECUTOR: Where did he touch [S.H.]?
AS.L.: In her mouth too.
PROSECUTOR: Would anything happen with his middle part
when he did that?
AS.L.: I don’t know.
PROSECUTOR: Were there any grownups around the house
when you would see thajt?
AS. L.: (Shakes head)

PROSECUTOR: When you lived in West Memphis, were
there any other boys or inen that lived in the house other than
Stan?
AS.L.: No, sir,

11

Page 11 of 45

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 12 of 45

Id. at 102-103.
According to As.L., the sexual contact with Carter occurred while her
grandmother, Ms. Smith, was at work. Doc. 13-4 at 106. When asked why she did
not tell her grandmother, As.L. said that Carter “told us to not tell grandma or nobody
else.”M at 104.
During her testimony, An.L. referred to Carter by his first name, “Stan.”15
Doc. 13-4 at 87. She testified that, when she lived with him, Stan touched her
“middle part” and “behind” with h: s hand, more than once, but that he did not touch
her anywhere else. Id. at 88. She recalled As.L. and S.H. being present when Stan
had this sexual contact, but said :io grownups were present. Id. at 88-89. An.L.
further testified:
PROSECUTOR: Have you ever seen Stan’s middle part or
private part?
AN.L.: (SHRUGS SHOULDERS) I don’t know.
PROSECUTOR: You don’t know what it looks like?
AN.L.: I don’t remember.
Id. at 89.
S.H. testified that her “granc daddy,” who she went on to identify as “Stan,”
touched her “private parts” with his hand and “freaked” her:16

15 An.L. was nine years old when she testified at Carter’s trial.

me. S.H. answered. Stan. Carter was the only man living in the residence with S.H. at the
12

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

PROSECUTOR: Who gave you a bad touch?
S.H.: (No audible response)
PROSECUTOR: Do you remember?
S.H.: (Nods head) My granddaddy.
PROSECUTOR: Your granddaddy. What’s his name?
S.H.: Stan.

PROSECUTOR. Can you tell... what he touched your private
j
part with?
S.H.: His hand.
PROSECUTOR: His hand. And did he touch you with
anything else?
S.H.: Lotion.
i
S.H.: He had put it on him.
i

PROSECUTOR: Where did he put it?
i

S.H.: On his private part.
PROSECUTOR: Did he put lotion on you?
S.H.: (Nods head)
PROSECUTOR: Wherej did he put it?
S.H.: On my private part.
PROSECUTOR: And then what happened?
S.H.: He ffeakted [sic] ne.
PROSECUTOR: And hb freaked you. Has this just happened
once?
S.H.: (Shakes head) A v hole bunch of times.

13

l

Page 13 of 45

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 14 of 45

PROSECUTOR: A whole bunch of times. Did he touch you
anywhere else with his private part?
S.H.: Uh-huh, my mouth.
PROSECUTOR: Did b e put his private part in your mouth?
S.H.: (Nods head)
PROSECUTOR: You’ 1 have to answer.
S.H.: Yes, sir.
PROSECUTOR: Did that happen once, or more than once?
S.H.: More than once. More than once.
Doc 13-4 at 61-66. The prosecut 3r asked S.H., “Did you ever see anything come
i

out of his private part?” S.H. answered, “Yes.. . . [wjhite stuff.” Id. at 68. S.H. said
that Stan abused her when her grahdmother was outside and As.L. and An.L. were
I

at a friend’s house. Id. at 67-68. Finally, S.H. testified that she also saw Stan “freak”
As.L. and An.L. more than once. Id at 68.
.

|

After court adjourned on thjs second day of the trial, Carter drove to Grand
Rapids, Michigan, “to see my kids or grandkids again.” Doc. 13-5 at 8-9. When
Carter’s absence from court was brought to the attention of the trial judge, at the
beginning of the third day of trial, he allowed the trial to proceed without Carter in
attendance. See Ark. Code Ann. § 16-89-103(a)(2) (allowing a trial to go forward

14

Case: 5:17-cv-00069-JTR

Documbnt #: 25-0

Date Filed: 03/26/2019

Page 15 of 45

without the defendant when the defendant is present for the beginning of trial but
later causes himself to be unable t o appear).17
After the state rested its cake, Mr. Hair unsuccessfully moved for a directed
verdict. With his client no longer in the courtroom, Mr. Hair was forced to make a
tactical decision on whether to cal 1 the four character witnesses he had subpoenaed
- all of whom were present to testify. In deciding not to call those witnesses, Mr.
Hair requested and was granted permission to make a statement , on the record and
outside the presence of the jury, explaining his tactical reason for doing so:
MR. HAIR: Based or consulting with Mr. Carter, he had
requested that I subpoena on his behalf a [JJuanita Duckworth
Robinson, Michael Wi hams, Mr. Andrew Williams and Ms.
Sharon Williams18 all ofwhom did come to court this morning.
The anticipated testimony from those witnesses would be that
I
At Carter s sentencing hearing, he offered the following explanation for leaving the
courtroom and the state after the second day of his trial:
Mr. Hair informed me on the second day of trial when he went out
and none of my witnesses was out there [which is irrelevant because
the prosecution had not yet rested its case], he told me that, Mr.
Carter, take care of whatever you have to take care of today because
when you come to court tomorrow you probably won’t be goin’
home so I didn’t know w hen I’d see my kids or grandkids again. 1
went to Grand Rapids. I seen my kids. I turned myself in the next
day at the Grand Rapids p dice department.
Doc. 13-5 at 8-9. The trial judge responded: “If you needed to say goodbye to your family the
time to do that was before the trial not during it. . . . [a]nd you had people here ready to testify on
your behalf the day you chose to run away. . . . They [Carter’s witnesses whom Mr. Hair
subpoenaed to testify] were certainly here during the trial,. . . during the day when . your case
would have been put on.” Doc. 13-5 at 19-20.
,
- . ^r' ^air a*so identified these fjiur individuals as potential defense witnesses on the first
day of trial, during voir dire. Doc. 13-3 at 30.
15

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

they were familiar with Mr. Carter, and that the allegations
made against him are inconsistent with their assessment of his
character as they have observed it over the past months and
years.
I
However, based on M*. Carter’s absence from the court, all
four witnesses stated that they were uncomfortable testifying
on his behalf and stated as such to me as his lawyer. And then
based on their unwillingness at that point to testify, they’ve
been released.
THE COURT: And your inability to discuss it with your client
[because Carter volunt arily elected not to attend the final day
of his trial, and instea d, drove to Michigan to visit with his
children and grandchildren].
MR. HAIR: And my in ability to - right.

There were several witnesses called by the State who I reserved
the right to recall in my case in chief based - to save them - to
have the option to discuss them with my client whether or not
I would recall them. Based on my assessment of the case thus
far and again my inability to discuss strategically with my
client what he would like to do, I am not going to recall any of
those witnesses ... And the main reason why is I am unable to
discuss with him whether or not he sees it as beneficial. I do
not. I’m not waiving anything that I find to be beneficial. I
don’t see any use in it ajt this point but I can’t consult with him
about that decision because he’s not here.

THE COURT: And [the State’s witnesses], you have had
opportunities to interview them prior to trial, and opportunities
to cross-examine them barlier in the trial, is that correct?
MR. HAIR: Yes.
Doc. 13-6 at 51-52 (emphasis addbd).

16

Page 16 of 45

Case: 5:17-cv-00069-JTR

B.

Document #: 25-0

Date Filed: 03/26/2019

Page 17 of 45

Analysis of Carter ’s Ineffective Assistance of Counsel Claims
Against Mr. Hair

On April 7, 2016, the Arkansas Supreme Court entered its decision affirming
Carter’s convictions. Under Arkansas Supreme Court Rule 2-3, Carter had eighteen
days to file a Petition for Rehearing.
In Mr. Short’s April 14,2016 letter to Carter, enclosing the Arkansas Sup reme
Court’s decision affirming Carter’s conviction, he stated that he would file a Petition
for Reheating on the state speedy trial claim, which was the only groundfay reversal
Carter raised in his direct appeaLj Doc. 8 at 28. For unknown reasons, Mr. Short
!

l

failed to do so, and the Arkansas Supreme Court entered its Mandate on April 26,
2016.19 Carter had sixty days, from April 26, 2016, to file his Rule 37 Petition.
On July 7, 2016, in response to a letter from Carter inquiring about the status
of his appeal, the Office of the jCriminal Justice Coordinator for the Arkansas
Supreme Court wrote Carter and advised him that Mr. Short did not file a petition
for rehearing and Carter’s “case is now considered closedf.]” See Letter from
Criminal Justice Coordinator to C arter, Doc. 8 at 30. By the time Carter received
this letter, it was too late for him tci) file a timely Rule 37 Petition.
According to Carter, by not filing the Petition for Rehearing, Mr. Short
“abandoned” him. Carter argues this caused him to miss the deadline for filing his

19 See Online Docket, Carter I State, Ark. S. Ct. Case No. CR-14-5, accessible at
https://caseinfo.aoc.arkansas.gov.

17

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 18 of 45

Rule 37 Petition, and forced him o assert his four ineffective assistance of counsel
claims, for the first time, in this habeas action. Having been “abandoned” by Mr.
Short, Carter contends the “cause and prejudice” exception excuses his procedural
default, consistent with the Court’s holding in Maples v. Thomas, 565 U.S. 266
(2012).20

In Maples, two pro bono lawyers from an out of state law firm represented the petitioner
in his Alabama postconviction proceeding. After filing the state postconviction petition, both
lawyers left the law firm for new employment, without notifying Maples or the trial court of their,
departure. Id. at 271. Later, the trial court denied the postconviction petition and sent separate
copies of his decision to the two lawyers at their former law firm where the trial judge still
understood they worked. The law finn returned both pieces of mail to the trial court, without either
being opened. Id. The trial court never a tempted any further mailing. Id.
After the deadline for appealing the trial court’s denial of postconviction relief had expired
an Alabama Assistant Attorney Genera sent a letter directly to Maples informing him the trial
court’s denial was now final. Id. at 277.
Maples retained new lawyers who requested permission to appeal the trial court’s denial
of postconviction relief despite missing the original deadline. That request was denied. Id. at 278.
Maples then sought federal habeas relief. Id. Both the district court and the Eleventh Circuit denied
Maples’s petition based on the procedural default. Id. at 279.
The Supreme Court reversed and remanded, finding cause to excuse Maples’ procedural
default because the attorney representing the petitioner abandoned him without notice and thereby
created the default. Id. at 281-283. In dbing so, the Court distinguished attorney abandonment
which satisfies the cause” requirement, from attorney negligence, which does not Id at 280 The
Court reasoned that, in abandoning the petitioner, the attorney severed the principal-agent
relationship and no longer served as thd client’s representative, so the attorney’s error was not
attributable to the former client:
We agree that, under ageycy principles, a client cannot be charged
with the acts or omissions of an attorney who has abandoned him.
Nor can a client be faulted for failing to act on his own behalf when
he lacks reason to believe his attorneys of record, in fact, are not
representing him.
Id. at 283.

18

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 19 of 45

Rather than engaging m a complex legal analysis of whether Carter has
procedurally defaulted his ineffective assistance of counsel claims, the Court
concludes it is more efficient to analyze and reject each of those claims on the
merits.21
Claim 1: Ineffective Assistance of Counsel Based On Mr Hair’s
Failure to Call Witnesses22
According to Carter, Mr. Ha ir failed to “properly subpoena, interview and/or
retain witnesses who were ready td testify on behalf of Mr. Carter’s good character
... including] but not limited to [Andrew and Sharron Williams], Michael Williams,
[J]uamta Robinson[,] ... and Samantha Smith.” Doc. 8 at 17. Additionally, he

21 See 28 U.S.C. § 2254(b)(2) (“An application for a writ of habeas corpus may be denied
on the merits, notwithstanding the failurej of the applicant to exhaust the remedies available in the
courts of the State.”); Trussell v. Bowersok, 447 F.3d 588, 590-591 (8th Cir. 2006) (because neither
the statute of limitations nor procedural default presents a jurisdictional bar to federal habeas
review, both issues can be bypassed “in Ihe interest of judicial economy”); Kemp v Hobbs 2012
^
? Ark' June 28’ 2012) (dtinS 28 U S C- § 2254(b)(2) and McKinnon v. Lockhart,
921 F.2d 830, 833 n. 7 (8th Cir. 1990)) (“Where it is more efficient to do so, therefore, this Court
may resolve [habeas] claims on the merits rather than navigating through a procedural-default
thicket.”).
In analyzing the merits of Claiihs 1 through 4, the Court must consider and answer two
questions:^, was Mr. Hair’s conduct professionally unreasonable under the circumstances- and
second, did Mr. Hair’s conduct prejudices Carter’s defense. Strickland v. Washington 466 U S
668, 688 (1984). An attorney’s performance is deficient when it falls below “an objective standard
of reasonableness. Id. The defendant i| prejudiced by the inferior performance if “there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Id. at 694. A habeas petitioner’s failure “to establish either Strickland
prong is fatal to an ineffective-assistance claim.” Worthinsto n v. Roper, 631 F.3d 487, 498 (8th
Cir. 2011).
5

19

j•
' •*,

•>

i.

■'v

•>

;

.V

■'5/>

(

\;

f

\,

/

■

■Ji

■V

V

-:

V

i ■

5

r

\

<£

\

\

.O

' ? 1

4

5

•1

;

\i-:s

Si

i

l
■!

: >4

>

t

t

■ v rl

<•

' -if

%'.
\

‘■._

~\

;

!
•O

• ;f

v:

4 *

r .

V

;

?.

?;•

;

i

*

?

■

;

•i

\

tr

c

■)

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 20 of 45

asserts that Juanita Robinson and Samantha Smith could have provided him with

an

alibi, by testifying that he was “[n ever alone” with the children. Id. at 17, 22.
Under Strickland, 466 U.S. jit 691, defense counsel has an affirmative duty to
i

investigate the case and make reasonable decisions in preparing for trial. However,
ineffective assistance of counsel cl aims, based on complaints of uncalled witnesses,
are not favored because: “[1] the presentation of testimonial evidence is a matter of
trial strategy[;] and [2] allegations of what a witness would have testified are largely
speculative.” Buckelew v. United S tales, 575 F.2d 515, 521 (5th Cir. 1978). Indeed,
defense counsel’s reasoned dec ision not to call a witness is a “virtually
unchallengeable decision of trial strategy.” United States v. Orr, 636 F.3d 944, 955
(8th Cir. 2011) (internal quotation^ omitted); Rodela-Aguilar v. United States, 596
F.3d 457, 464 (8th Cir. 2010) (explaining “there is considerable risk inherent in

j
calling any witness because if tie witness does not hold up well on crossexamination, the jurors might draw unfavorable inferences.”) (internal quotations
omitted).
Finally, to establish Stricklan^ “prejudice”, based on defense counsel’s failure
to investigate and call a potential witness, a habeas petitioner “must show that the
i

I

witness would have testified and that their testimony ‘would have probably changed
the outcome of the trial.’” Hadley v. Groose, 97 F.3d 1131, 1135 (8th Cir. 1996)
(quoting Stewart v. Nix, 31 F.3d 74 j, 744 (8th Cir. 1994)).

20

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 21 of 45

a. Mr. Hair ’s Decision Not To Call Any “Character
Witnesses’
Carter contends that, on thj3 thlrd and final day of his trial, Mr. Hair should
have called Andrew Williams, Sharron Williams, Michael Williams, Juanita
Robinson, and Samantha Smith tc ' testify about his good character. However,
apart
from making a series of entirely oonclusory and factually unsupported assertions,
Carter has done nothing to show hbw Mr. Hair’s decision not to call those

witnesses

was deficient.
Importantly, four of those v fitnesses — Andrew Williams, Sharron Williams,
Michael Williams, and Juanita Robinson — appeared in court and were prepared to
testify, pursuant to subpoenas issihed by Mr. Hair. Carter’s unexplained absence
from the courtroom caused all foul of them to advise Mr. Hair that th

ey were now

unwilling to testify. Doc. 13-6 at 5^-52.
I

If Mr. Hair had called those now reluctant witnesses, it is possible they might
have become “hostile” and offer testimony harmful to Carter. Additionally, if Mr.
Hair had called these witnesses, it would have opened the door for the prosecutor to
cross-examine them about Carter’s prior criminal history.23 Ark. R. Evid. 404(a);

During the sentencing hearing, the prosecutor effectively questioned Walter Ralre

thd^crf property' Seek™ TT't86 °f'=T’S ^ ^ Charge*his convictio"s

r, a
>4lary

P P ,rty’ breakmg and entenng, and commercial burglary; and a narole violation thlr
resulted in a six-year term of imprisonment in the ADC. Doc. 13-5 at 6-7 ?
^

21

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 22 of 45

Frye v. State, 2009 Ark. 110, 19, 313 S.W.3d 10, 16 (2009) (When a defendant
produces a character witness, *| defendant opens the door to evidence tha, might
otherwise be inadmissible, including inquiry on cross-examination into relevant
specific instances of conduct.).
In their affidavits filed h support of Carter’s habeas

papers, Anthony

Williams, Sharron Williams, and Juanita Robinson all claim that Mr. Hair
never
spoke with them prior to trial.2* d\,c. 8 at 38-39 and Doe 18 at 4-5. However,
of them dispute being present in jthe courthouse

none

on the final day of Carter’s trial,

pursuant to subpoenas rssued by Mr. Hair. Furthermore, their contention that Mr.
Hair did not interview them prior to trial in no way undermmes the following
uncontroverted facts: (1) Mr. Hair subpoenaed Juanita Robinson, Michael Williams,
Andrew Williams, and Sharon Williams to testify at Carter’

s trial; (2) all four of

them appeared on the third and final day of the trial; (3) Mr. Hatr believed when he
subpoenaed them that they all would provide favorable testimony about Carter’s
good character; and (4) after they learned that Carter

was not present in the

courtroom, they expressed an unw: llingness to testify, which required Mr. Hair to
make the tactical decision not to ca 1 them as witnesses.

24 Carter provided no affidavits fro
witnesses he contends Mr. Hair should ha ” c“es“v ^ M‘Cha" W",iamS’««
22

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 23 of 45

It was Carter’s own actions, in leaving the state and not being present in the
courtroom on the last day of his tr al, that caused him to be “hoist on his own petard”
with regard to the planned testimony of his character

witnesses. Given those

circumstances, which were beyond Mr. Hair’s control, he made

a reasonable tactical

decision not to call any character witnesses.
Apart from not demonstrating any deficient performance by Mr. Hair, Carter
also has not shown how he was prejudiced” under the second prong of Strickland.
To do so, Carter would have to dfemonstrate that the testimony of those witnesses
“would have probably changed the outcome at trial.”

Siers v. Weber, 259 F.3d 969,

974 (8th Cir. 2001). Carter has presented no evidence to meet his burden of
establishing Strickland prejudice.
b. Mr. Hair s ^Ileged Failure to Call Juanita Robinson and
Samantha Smith to Establish That Carter “Lacked the
Opportunity” to Rape the Three Victims
According to Carter, Ms. Ropinson and Ms. Smith25 would have testified that
he was never alone with the girls. Doc. 8 at 22. Carter claims that Ms. Smith
was
present in the home before the girls went to school and Juanita Robinson

was there

when Carter brought them home from school. Id.

2S During the relevant time period, Ms. Smith was
the girls’ primary caretaker and their
“grandmother.” She lived in the same
subpoeuaed her as a witn^s and .1 .s
30. After Carter s arrest, As.L. and An.^moved ,o Wisconsin ,o iive with their father and s h‘

moved in with her other grandmother. Do " 13-4 at 71, 82, and 94.
23

Case: 5.17-cv-00069-JTR

Documjent #: 25-0

Date Filed: 03/26/2019

Page 24 of 45

Carter’s habeas papers include an Affidavit from Ms. Robinson,

which states

that she shared a bedroom with fhe girls while recuperating from

a car accident
“around the year of 2011 and 201 j” Doc. 18 at 4-5. She further states: “I was there
when Stan had to pick up the kids from school” and “used to talk and hang out with
my nieces [As.L. and An.L] a lot aid they never looked as if anything bad

was going

on wrong with them.” Id. These v|gue hearsay statements by Ms. Robinson neither
provide Carter with an alibi nor c institute admissible evidence that Carter did
not
rape the three victims.
While Carter claims that M|r. Hair also should have subpoenaed and called
Ms. Smith to testify, any testimony from her that Carter was never alone with the
girls would have been in direct conflict with uncontroverted evidence

in the record

that Carter was often alone with the girls.26 After all, Ms. Smith worked and was not
home during the day, which wou l i make it difficult for her to offer any credible
testimony about how much time Carter spent alone with her granddaughters.
Suffice it to say, Carter has I not demonstrated

a reasonable probability that

witnesses existed to prove he lacked the opportunity to rape the three victims.

. ■

*•

°n MaJ 23’ 2012, the af :ernoon Detectives Sammis and Peeler went to the home

woricV Do!*U laui?

’ CarteI wis 'he °nly °ne there Wi,h ,he Victims Ms Smith was «

24

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 25 of 45

Likewise, Carter has presented no evidence that, if Ms. Robinson and Ms

. Smith had

testified, the outcome of his trial would have been different.
Accordingly, Claim 1 fails on the merits and must be dismissed, with
prejudice.
Claim 2: Ineffective Assistance of Counsel Based on Mr. Hair’s
Failure to Request a Continuance or Otherwise Object to the
Amended Criminal Information
The initial criminal information charged that “on or about May 23, 2012,”
Carter “did unlawfully engage in sexual intercourse or deviate sexual activity with
three other persons, females, one si x (6) year old, one eight (8) year old and one nine
(9) year old.” Doc. 13-2 at 20-21 .27 Doc. 13-2 at 20-22. On the morning before
Carter s trial, the prosecutor amenc ed the criminal information to state that the rapes
took place between “January 1, 2011 through May 24, 2012.” Id. at 18-19.
Carter claims Mr. Hair pro vi ded ineffective assistance of counsel by failing to
move for a continuance or seek a bill of particulars based on the amended criminal
information:
Here the state originally charged Petitioner with three (3) rape
offenses against three| (3) separate females alleging all
occurred on May 23,2012. For over a year Petitioner did focus
and prepare for this. Then, on the eve of trial, without objection
of trial counsel, the state filed an amended information alleging
three (3) rapes against three (3) females to have occurred
January 1, 2011, through May 24, 2012 . . . any reasonable
« 5 ,4 To'^nvl wUf l'™?”“ defi"ed m Ark'Code Ann S 5-14-|0L As applied to Carter,
§5d4-103(aX3 (A) states that “a person commits rape if he or she engages in sexual intercourse
or deviate sexual activity with another person . who is less than fourteen years of age."
25

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 26 of 45

acting attorney would) have objected to the late amendment,
requesting a bill of particulars and made record of the obscurity
in the charging instrunjient.
Petitioner, actually, nm aware ofthe specifics alleged against
him. The mere citation of a statute without further explanation
just didn’t provide enough information in order for petitioner
to adequately prepare for such an advers[ar]ial test of the
State’s case against him.
Doc. 8 at 18 (emphasis added).

I

While the sufficiency of a st ate charging instrument is primarily a question of
state law, the Due Process Clause of the Fourteenth Amendment requires that a
person receive fair and reasonable police of the charges against him. Lee v. Gammon,
222 F.3d 441, 442 (8th Cir. 2000)) Wilkerson v. IVyick, 806 F.2d 161, 164 (8th Cir.
1986); see also Yohey v. Collins, 985 F.2d 222, 229 (5th Cir.1993) (“Sufficiency of
a state charging instrument is not 4 matter for federal habeas corpus relief unless it
can be shown that the indictment is so defective that the convicting court had
no
jurisdiction over the case.”); Jones v. Bradshaw, 2006 WL 2849766 (N.D.Ohio
2006) (on federal habeas review the “sole Constitutional issue is whether the
indictment provides the defendant with sufficient information of the

charged

offense, to enable him to defend himself against the accusations.”).
The original criminal information charged Carter with three counts of rape for
engaging in sexual intercourse or de viate sexual activity with As.L., An.L., and S.H.,
“on or about May 23, 2012.” There is no evidence that the prosecution’s amendment

26

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

of the criminal information, thej day before trial, to allege the

Page 27 of 45

rapes took place

between “January 1, 2011 [and] kay 24, 2012,” prejudiced Carter’s defense. Mr.
Hair and Carter both knew, based an the original criminal information, that the three
victims might testify that Carter sexually abused them before “on or about May 23,
2012, a date that initially was selected by the prosecutor because

it was the day

before law enforcement authoritibs learned that Carter was
sexually abusing the
three children.28 The amended information merely clarified that the prosecutor
believed the rapes were committee between January 1,2011, and May 24. 2012, the
approximate period of time Carterj lived in the house and had the opportunity to be
alone with the victims. See Lee v. Gammon, 222 F.3d at 441, 442-43 (8th Cir. 2000)
(due process question is whether defendant “actually received notice of the crime of
which he was convicted”); Kilgore^ v. Bowersox, 124 F.3d 985, 993 (8th Cir. 1997);
Cokeley v. Lockhart, 951 F.2d 91bj 918-20 (8th Cir. 1991).

r v i ^ Ulr Cr Afka"SaS law’ “general^y the time a crime is alleged to have occurred is not of
critical significance unless the date is material to the offense.” Harris v State 320 Ark 677 680
899 5.™*, 46. (1995) (citing Fry v. State, 309 Ark. 316, 829S W2d4150^92»

AA 607' 95?S W 2d4S n wnTf 6

Chi'dre" ** fantsSee ako•

Estate, 329

Ark. 607, 953 S.W.2d 48 (1997) (citations omitted) (In the context of sexual abuse to
a child, the
government is not required “to prove specifically when and where each act of rape or sexual
contact occurred, as time is not an essential element of the crimes ”)
Similarly, the Eighth Circuit has determined that the date of an offense is not a material

f ^ ™S£ejur,rrof
,he un,ted*■ s“s
U"i,edS,ates

531 F. Supp. 2d 1072, lO^D N D 2008H“h fe d^a!? *
the offense of sexual inrse of a minor
27

“ materia' eleme"‘ °f

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 28 of 45

Carter does not explain wl|y he needed additional time to prepare for trial,
based on the amended criminal information, or explain how a continuance would
have produced a different result. Carter’s defense was that he

never raped the victims

on any date, regardless of whether it was May 23,2012, or some other dates between
January 1, 2011, and May 24, 2012. Based on these facts, the amended criminal
information did not violate Carter’s due process rights or otherwise provide Mr. Hair
with any legal basis for seeking a continuance or a bill of particulars.
Accordingly, Claim 2 fails on the merits and must be dismissed, with
prejudice.
Claim 3: Ineffecti ve Assistance of Counsel Based on Mr. Hair’s
Failure to Infor m Carter of DNA Evidence and Obtain
Independent Experts to Review the DNA Evidence29
Carter claims Mr. Hair prov ded ineffective assistance of counsel by “failing
to timely inform [him] of and prepare him with exonerating DNA evidence,” and
not seeking an independent expert o review the DNA evidence. Doc. 8 at 16-17.

In Carter’s habeas papers, he appears to argue that both Mr. Hair and “the State” failed
to “furnish [to Carter] the [DNA] materials necessary to conduct a fair trial.” Doc. Sat 17. As will
be explained, any assertion that the prosecution failed to disclose the DNA evidence is
conclusively refuted by Mr. Hair’s effective use of that evidence during Carter’s trial. Morales v.
Ault, 476 F.3d 545, 555 (8th Cir. 2007) (citing Brady v. Maryland, 373 U.S. 83 (1963) (Brady
requires a showing that the prosecution a itually suppressed the evidence.)).
28

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 29 of 45

On the final day of trial, the prosecution called Christopher Glaze, a DNA
Analyst with the Arkansas State Crime Laboratory.30 Mr. Glaze testified that he
initially compared the DNA mate,,al from S.H.'s vulvar swabs and underwear with
the oral DNA swabs from Carter. Mr. Glaze found no male DNA on any of the
samples taken from S.H.

|

According to Mr. Glaze, ljie then conducted a DNA “Y test”
I

on S.H.’s

j

underwear. Doc. 13-6 at 27.31 /^fiter performing the DNA Y test, Mr. Glaze
developed a partial Y profile an i concluded that neither Carter nor any of his
paternally-related male relatives c 3uld be excluded ’ as a potential contributor of
the partial Y profile developed from S.H.’s underwear. Id. at 28-29.
The trial record clearly demonstrates that Mr. Hair obtained and reviewed the
I
l

DNA evidence prior to trial and adequately prepared his cross-examination of Mr.
Glaze. Doc. 13-6 at 31-46. During his cross-examination, Mr. Hair used Mr. Glaze’s
reports, based on the standard DNA test and the DNA Y test, to establish that neither

Forensic Serologist Stacie wkssell, with the Arkansas State Crime Lab tested the
samples from S.H. for the presence of semen. She also took tape-lifts from S.H.’s underwear Doc
13-6 at 16. Ms. Wassell’s report, dated July 20, 2012, concluded that no sperm cells were present
on any of the samples. However, she identified the presence of P-30, a component of semen on
S.H s underwear. Id. Ms. Wassell then prepared and sent those samples to Mr. Glaze for further
DNA analysis. Id. at 17.
31 Mr. Glaze explained that the DNA Y test is useful in cases where the sample
contains a
large amount of female DNA mixed with a very small amount of male DNA. He also testified that
DNA. Id af 27 2T ^
^
°NA
U i§ masked by the volume of female

29

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 30 of 45

test identified Carter as the source for the male DNA material. Id. at 34-35. Mr. Hair
also cross-examined Mr. Glaze at length on the reliability of the database he

used in

developing the DNA Y profile « Thus, Mr. Hair’s cross-examination of Mr. Glaze
effectively demonstrated that the ANA Y test, which resulted in a partial Y profile,
was of questionable reliability an|d only served to identify Carter and any of his
paternally-related male relatives as persons who could not be “excluded” as a
potential contributor to the partial V profile developed from S.H.’s underwear.
Given the favorable testimc ny from Mr. Glaze on cross-examination, there
was no need for Mr. Hair to call an independent DNA expert. At most, such an expert
would have identified the same hot es in Mr. Glaze’s DNA test results that he freely
admitted on cross-examination. Ske Battle v. Delo, 19 F.3d 1547, 1557 (8th Cir.
1994), as modified on reconsideration, 64 F.3d 347, 353-354 (8th Cir. 1995) (“Trial
counsel is not required to employ the services of experts, provided that counsel

32 On direct examination, Mr. Glaze explained that the rarer the YSTR profile (the profile
developed by isolating the Y chromosortie), the more weight a consistent match may be given
Doc. 13-6 at 30. In determining the raj-eness of the partial profile he developed from S.H.’s
underwear, Glaze searched an online database containing between 15,000 and 16,000 other YSTR
profiles. Id. The partial profile from S.H was not observed in any of the profiles in the database
which contained the following demographic: 4,178 African-Americans; 852 Asians' 6 745
Caucasians; 3,106 Hispanics; and 910 N4tive Americans. Id. at 30.
On cross-examination, Mr. Glazq acknowledged that he only had a partial profile in this
case, and, the fuller the Y profile is, the more accurate the test. Id. at 42. He also agreed that the
DNA Y test could not include persons with scientific certainty. Id. at 37-38. Finally, Mr. Glaze
agreed that the database would only be helpful to demonstrate rareness if the database included
profiles from a broad range of geographiq regions. Id. at 40-42. Mr. Glaze could not say where the
profi es in the database came from, aside from noting that blood banks and volunteers provide the
profiles from Florida, Wisconsin, and “a ot of different areas.” Id. at 43

30

Case: 5:17-cv-00069-JTR

Documbnt #: 25-0

Date Filed: 03/26/2019

Page 31 of 45

prepares an adequate defense for a client through careful investigation of facts
surrounding the case.”).
Finally, “[a] claim of ineffective assistance based on the failure to consult and
call an expert requires evidence o( what a scientific expert would have stated at trial
in order to establish Stricklandpre udice.” Rodela-Aguilar v. United States, 596 F.3d
457, 462 (8th Cir. 2010). Here, Carter does not explain how a defense DNA expert
might have offered evidence to undermine the

eye-witness testimony of As.L., S.H.

and An.L. It was their strong and credible testimony, not the vague and equivocal
DNA evidence,- that resulted in Carter’s convictions for raping each of them.
Accordingly, Carter has failed to establish any prejudice, as required by Strickland.
While Carter alleges that Mr. Hair failed to inform him of the DNA evidence
prior to trial, he does not explain how it resulted in any Strickland prejudice

. Carter

contends that, because none of the DNA evidence unequivocally identified him as
the source for the male DNA prese fit on S.H.’s underwear, it “exonerated him.” On
its face, Carter’s argument is preposterous. The inconclusive DNA evidence in no
way meant that Carter did not rape S.H.; and it had no relevance whatsoever to the
question of whether he also raped As.L. and An.L.33

the twa
“J*

sentf"cinS hearing, Cartir said: “I just found out this momin[g] by Mr Hair that
r 57*,d,reCtIy “ me' " haH somethin[g] to do with someone in my farndy or close

31

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 32 of 45

As.L. testified that Carter penetrated her mouth and vagina with his penis
more than once and that she watched him do the same to An.L. and S.H. numerous
times. Doc. 13-4 at 99-103. S.H. also testified that Carter repeatedly had oral and
vaginal sex with her. Id. at 65-66. An.L. testified that Carter touched her vagina and
buttocks and that As.L. and S.H. were present when he did it. Id. at 88-89. Their
testimony, standing alone, was sufficient to convict Carter, beyond a reasonable
doubt, on all three counts. See Smdll v. State, 371 Ark. 244, 256 (2007) (Williams v.
State, 363 Ark. 395, 214 S.W.3d W29 (2005) (DNA evidence unnecessary because
“the uncorroborated testimony of a rape victim is sufficient to support a conviction
|

if the testimony satisfies the statutory elements of rape”)).
Carter has not demonstrated how the DNA evidence he complains about was
even detrimental to his defense, much less how Mr. Hair’s further development of
that evidence might have had the potential to change the outcome of the trial.
i

i

Accordingly, Claim 3 fail4 on the merits and must be dismissed, with
prejudice.

i

evidence that was his problem - it was the strong and credible testimony of the three young girls
he raped, who each described in graphic detail what he did to them.

32

I

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 33 of 45

Claim 4: Mr. Hair’s Failure to Challenge the Sufficiency of the
Evidence, on Direct Appeal, Constituted Ineffective Assistance
of Counsel.
After the prosecution rested Mr. Hair moved for a directed verdict based on
insufficient evidence. Doc. 13-6 at 46-47?* Carter claims Mr. Hair provided
ineffective assistance of counsel because he failed to raise the issue of the sufficiency
of the evidence on direct appeal. Doc. 8 at 18-19. For the reasons explained below,
this claim fails on the merits.
Under Arkansas law, rapfe is defined to include “engaging] in sexual
intercourse or deviate sexual activity with another person . . . [w]ho is less than
fourteen (14) years of age.” Ark. Code Ann. § 5-14-103(a)(3)(A) (emphasis added).
“Deviate sexual activity” is defined as any act of sexual gratification involving the
j

“penetration, however slight, of thp anus or mouth of a person by the penis of another
i
person” or the “penetration, however slight, of the labia majora or anus of a person
|

by any body member or foreign instrument manipulated by another person.” Ark.
i
I

Code Ann. § 5-14-101(1).
All three girls were children, well under fourteen years of age at the time of
the charged conduct. As.L. testified that Carter orally penetrated her with his penis

34 Mr. Hair argued: (1) the testirr ony from the girls was not credible or consistent; (2) there
was no other eyewitness testimony; (3 I the DNA tests were inconclusive, and the DNA Y test
relied on a faulty database; and (4) Dr. Taylor found no injuries she could say for certain were the
product of a sexual assault. The trial courtdenied the motion for directed verdict, concluding that
As.L.’s testimony alone was sufficient for the case to go to the jury. Doc. /3-6 at 48.

33

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 34 of 45

more than once. She further testi fied that she saw him orally penetrate S.H. and
An.L. Doc. 13-4 at 99-103. While As.L.’s trial testimony alone was more than
sufficient to support Carter’s convictions on all three counts of rape, there was
additional consistent supporting te stimony from S.H. and An.L. Id. at 65-66, 88-89.
S.H. testified that Carter repeatedly raped her orally and vaginally, and An.L.
testified that Carter touched her vagina and buttocks and that As.L. and S.H. were
!

present when he did it. See Loeblein v. Dormire, 229 F.3d 724, 726 (8th Cir. 2000)
(citing United States v. Wright, lf9 F.3d 630, 634 (8th Cir. 1997)) (A rape victim’s
testimony is, “by itself, normally sufficient to sustain a conviction.”); see also,
United States v. Tillman, 765 F.3cji 831, 834 (8th Cir. 2014) (quoting US. v. L.B.G.,
131 F.3d 1276, 1278 (8th Cir. 2011) (“i[t] is well established that the uncorroborated
testimony of a single witness may be sufficient to sustain a conviction.”)). Thus, it
would have been pointless and futile for Mr. Hair to challenge the sufficiency of the
evidence on direct appeal.35
!

35 There is a “strong presumption that counsel’s conduct falls within the wide range of
reasonable professional assistance.” O tarboneau v. United States, 702 F.3d 1132, 1136-37 (8th
Cir. 2013) (quoting Strickland, 466 U.S . at 689). The Court must be “particularly deferential when
reviewing a claim that appellate coun sel failed to raise an additional issue on direct appeal.”
Charboneau, 702 F.3d at 1136. “Experienced advocates since time beyond memory have
emphasized the importance of winnowing out weaker arguments on appeal,” U.S. v. Brown, 528
F.3d 1030,1033 (8th Cir. 2008) (quotin\\Jones v. Barnes, 463 U.S. 745, 751 (1983)). Thus, “absent
contrary evidence, we assume that appellate counsel’s failure to raise a claim was an exercise of
sound appellate strategy.” Brown, 528 F.3d at 1033.
Finally, it was Mr. Short, ndt Mr. Hair, who filed Carter’s Appellant’s Brief and
represented Carter in his direct appeal. Carter does not assert an ineffective assistance of counsel
claim against Mr. Short for his decision not to challenge the sufficiency of the evidence in Carter’s
direct appeal. Doc. 8 at 18-19.

34

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 35 of 45

Accordingly, Claim 4 fails on the merits and must be dismissed, with
prejudice.
C.

Carter’s Claim That His Convictions Must Be Vacated Based
on a
Violation of Arkansas’ Speedy Trial Rule (Claim 5)

Carter contends that, because the trial court “did not follow the strict
requirements of Arkansas Rule of Criminal Procedure 28.3,” his convictions should
be vacated. Doc. 2 at 2. Respondent correctly argues that this claim,

which is based

on an alleged violation of state lav , is not cognizable in a federal habeas action.
An alleged violation of Arkansas’s speedy trial rule is not cognizable in a §
2254 habeas action because “taken alone, [it] does not present a federal claim
reviewable on a habeas petition.” [See Poe v. Caspari, 39 F.3d 204, 207 (8th Cir.
1994). Accord: Allen v. Department of Corrections, 288 Fed. Appx. 643, 644-45
(11th Cir. 2008) (district court did not err in failing to address speedy-trial claim
premised on violation of state sp ;edy trial that made “no mention of a federal
constitutional speedy trial violation ”); Zerla v. Leonard, 37 Fed. Appx. 130, *1 (6th
Cir. 2002) (rejecting petitioner’s chjim that his federal constitutional rights had been
violated based on a violation of a sta te-law speedy-trial rule — “Federal habeas corpus
relief is not available on the basis of alleged violations of state law, but is confined
to arguments raising violations of the Constitution.”); Hilgert v. Stotts, 36 Fed.
Appx. 348, 350 (10th Cir. 2002) (de dining to issue certificate of appealability of the
district court s rejection of a speedy-trial claim based
35

on a violation of state law -

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 36 of 45

state-court determinations of state-law claims will not be examined in federal
habeas proceedings”); McGowan v. Miller, 109 F.3d 1168, 1172 (7th Cir. 1997)
(habeas petitioner who presented a “thorough and lengthy argument on the alleged
violation of his right under state la(v to a speedy trial” in state court did not properly
present claim that he was denied h|s federal constitutional right to a speedy trial).
Accordingly, Claim 5 fails on the merits and must be dismissed, with
prejudice.
D.

Carter’s Claim That His Convictions Must Be Vacated Based on a
Violation of His Con stitutional Right to a Speedy Trial (Claim 6)

In his habeas papers, Cart er asserts, for the first time, that his federal
constitutional right to a speedy trM was violated.36 Doc. 2 at 4. Respondent argues
that this claim is barred by the doctrine of procedural default.
To avoid a procedural default, a habeas petitioner must demonstrate that he
first fairly presented his constitutional claim to the state court, i.e., he must “ present
i

the same facts and legal theories to [he state court that he later presents to the federal
courts.” Morris v. Norris, 83 F.3 d 268, 270 (8th Cir. 1996) (quoting Jones v.
Jerrison, 20 F.3d 849, 854 (8th Cir. 1994)). To satisfy the “fair presentation”
requirement, a habeas petitioner must raise and point the state court to “a specific

whicV:,i:^
Amendment. Barker v. Wingo, 407 U.S. 514, 515 (1972).
36

tn

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 37 of 45

federal constitutional right, a particular constitutional provision, a federal
constitutional case, or a state case raising a pertinent federal constitutional issue.”
Ford v. Norris, 364 F.3d 916, 921 (8th Cir. 2004) (citation omitted). This means that
Carter must demonstrate that he raised his Fourteenth Amendment federal speedy
trial claim with the trial court and then appealed the denial of that claim to the
Arkansas Supreme Court in his direct appeal. See Meek v. State, 2013 Ark. 314, at 3
(allegations of violations of a defendant’s speedy-trial rights constitute a trial court
error that must be raised on direct appeal and are not cognizable in a Rule 37
petition). Only after doing so can Carter properly pursue his federal speedy trial
claim in this § 2254 action.
Carter admits that he raised only a state speedy trial claim in the motion to
dismiss he filed with the trial coulrt. The trial court’s alleged error in denying that
motion was Carter’s only argument in his direct appeal to the Arkansas Supreme
Court. Even though he acknowledges he never raised a federal speedy trial claim in
his state court proceedings, he argues that “referring to the applicable state speedy
trial rules is sufficient because Rule 28 [of the Arkansas Rules of Criminal
Procedure] was adopted for the purpose of enforcing the constitutional provision
requiring a speedy trial.” Doc. It at 2-4. As legal support for his position, Carter

37

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 38 of 45

cites Cox v. Lockhart, 970 F.2d A 48 (8th Cir. 1992).37 Suffice it to say, in making
this argument, Carter demonstra tes no understanding of the controlling Eighth
Circuit case law on procedural default. Ford, 364 F.3d at 921.
Carter unquestionably has procedurally defaulted his federal speedy trial
claim. Before the Court can reach and decide such a claim, Carter must establish
either “cause and prejudice” or “Actual innocence” as equitable grounds to excuse
his procedural default.38

37 Carter relies on footnote 5 in (jox as if it represents a controlling rule of law. It does not.
Rather, in the footnote, the Court quotes the petitioner-appellant’s argument:
In his brief, appellant states:
The only question here relates to the legal basis for the argument,
i.e., whether it was base d upon the state speedy trial rules or the
federal Sixth Amendment speedy trial guarantee. We acknowledge
that Cox’s Rule 37 [state] petition does not contain a reference to
the latter of these. Howev er, referring to the applicable state speedy
trial rules (Ark. R. Crim. P. 28 et seq.) is sufficient because “[r]ule
28 was adopted for the purpose of enforcing the constitutional
provisions requiring a spfeedy trial.” [citations omitted]. In light of
this, it should be held that reference to Ark. R. Crim. P. 28 is clearly
an implied reference to thi Sixth Amendment speedy trial guarantee.
Cox v. Lockhart, 970 F.2d 448, fn. 5 (8th Cir. 1992) (emphasis in original). The Court went on to
explicitly reject Cox’s argument, hold ing “[a] fair presentation of appellant’s current Sixth
Amendment speedy trial claim would haye required a much broader factual and legal presentation”
than Cox s argument in the state court that “focused upon the calculation of certain time periods
and whether defendant requested or was' responsible for certain delays.” Id. at 454.
Federal review of a procedura ly defaulted habeas claim is barred unless the petitioner
can demonstrate “cause” for the default and “actual prejudice.” Coleman v. Thompson, 501 U.S.
722, 750 (1991). Alternatively, a habeas petitioner can also save such a procedurally defaulted
claim if he can demonstrate that a constitutional violation “has probably resulted in the conviction
of one who is actually innocent. Murray v. Carrier, All U.S. 478, 496 (1986).

38

Case: 5:17-cv-00069-JTR

1.

Document #: 25-0

Date Filed: 03/26/2019

Page 39 of 45

Cause and Prejudice

As cause for the default, (Tarter offers only one justification: Mr. Short, the
I
i
attorney who represented him on direct appeal, “abandoned” him seven days after
the Arkansas Supreme Court affirmed Carter’s convictions. Doc. 8 at 4. According
to Carter, Mr. Short sent him! a letter, dated April 14, 2016, in which he
unequivocally stated that he would file a petition for rehearing on the state speedy
trial issue, something he later failed to do. The record is silent on why Mr. Short did
j

not file the petition for rehearing,| or have any further contact with Mr. Carter about

j
the status of his appeal.
If Mr. Short’s failure to bet was the result of “negligence,” it does not
constitute “cause” sufficient to excuse Carter’s failure to file a timely Rule 37
Petition raising his ineffective assistance of counsel claims. Only if Mr. Short did
not file the petition for rehearing, because he “abandoned” his representation of
Carter, can it constitute “cause” tp excuse Carter’s procedural default. See Maples,
565 U.S. at 280-281, 283.39
Given the completely undeveloped record regarding Mr. Short’s reasons for
not filing the petition for rehearing, the Court is in no position to decide, under

39 Carter also cites Martinez v. Ryan, 566 U.S. 1 (2012) and Trevino v. Thaler, 569 U.S.
413 (2013), to support his claim that th is Court should excuse his procedural default. Because the
Martinez and Trevino exception does r. ot extend to claims of trial error (such as Carter’s speedy
trial claim), those decisions have no application to the facts in this case. See Dansby v. Hobbs 766
F.3d809, 833 (8th Cir. 2014).

39

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 40 of 45

Maples, if there is cause for excusing Carter’s procedural default of his ineffective
assistance of counsel claims. However, there is a far more obvious and fundamental
legal problem with Carter’s argument that makes this
case factually distinguishable
from Maples, and deprives Carter of a legal basis for claiming his procedural default
should be excused under the “cause and prejudice” exception.
A speedy trial violation is a a error that must be raised with the trial court and
then reasserted on direct appeal, keek, 2013 Ark. 314 at 3. That means Carter
required to raise both his state and federal speedy trial claims with the trial
I

was

court and

then, after those claims were denied, to raise them again in his direct appeal to the
Arkansas Supreme Court.
l .

Here, Carter’s trial counsel, Mr. Hair, raised the state speedy trial claim with
the trial court but not the federal speedy trial claim. Thus, when Mr. Short inherited
Carter’s case on appeal, the federal speedy trial claim had already been procedurally
defaulted and he could not raise it on direct appeal. As a result, even if Mr. Short
had filed the petition for rehearing, it would have been limited

to requesting the

Arkansas Supreme Court to reconsider its denial of the state speedy trial claim.
Accordingly, regardless of Mr. Short’s reason for not filing the petition for
rehearing, it did not result in Carter’s procedural default of the federal speedy trial
claim. Nothing in Maples authorize? this Court to find that Mr. Short’

40

s failure to file

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 41 of 45

the petition for rehearing is “cat ise for excusing Mr. Hair’s failure to raise and
preserve the federal speedy trial claim during Carter’s trial.40
The only remaining ground for saving Carter’s procedurally defaulted federal
speedy trial claim is that this Court’s failure to consider it would result in a
fundamental miscarriage of justice, i.e., the alleged constitutional error probably
resulted in the conviction of an innocent person. Schlup v. Delo, 513 U.S. 298, 327
(1995); accord House v. Bell, 547 U.S. 518 (2006).
2.

Carter’s Gateway Claim of Actual Innocence

Carter asserts that he is “ actually innocent”, as a gateway to excuse the
procedural default of his federal speedy trial claim. Doc. 2 at 4, Doc. 8 at 20-24. For
the reasons discussed below, the Court concludes that Carter’s gateway claim of
actual innocence is without merit.
In McQuiggin v. Perkins, 569 U.S. 383, 386 (2013), the Court explained that
actual innocence, if proved, serves as a gateway through which a petitioner may
pass whether the impediment is a procedural bar . . . or . . . expiration of the statute
of limitations.” The Court went on to “caution, however, that tenable actualinnocence gateway pleas are rare: A petitioner does not meet the threshold
requirement unless he persuades t^ie district court that, in light of the new evidence,

Because Carter has not demonstrated “cause” to excuse his procedural default, the Court
need not address whether there was any “actual prejudice” as a result of the alleged violation of
federal law. McCleskey v. Zant, 499 U.S. 467, 602 (1991).

41

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 42 of 45

no juror, acting reasonably, would have voted to find him guilty beyond a reasonable
doubt.” Id. (quoting Schlup v. Delo, 513 U.S. 298, 329 (1995)) (internal quotations
and alterations omitted). The actual-innocence exception requires a habeas petitioner
to come forward with “new reliable evidence” which was “not available at trial
through the exercise of due diligehce.” Schlup, 513 U.S. at 324.
In his Affidavit filed in support of his habeas claims, Carter asserts that the
I

three victims “framed him” because he disciplined As.L. and An.L. around the time
of his arrest:
[t]hat between the dajte(s) of January 1, 2011 through May
24, 2012 I did not perform any sexual intercourse and/or
perform any type of deviate sexual acts on [S.H.], [An.L.]
and [As.L.], that those allegations were not true. ... I
disciplined [An.L.]. . . . I spanked [An.L.] for lying and
acting up ... the sam e day, [As.L] received a spanking for
constantly acting up during the night when they had been
put to bed.
Doc. 8 at 36-37. Carter’s factual assertions that “corporal punishment” led the
victims to falsely accuse him of rape could have been presented during the trial, and
do not constitute “new evidence.” Schlup, 513 U.S. at 324.
Carter also now attempts to kely on the following hearsay statements in Juanita
Robinson’s Affidavit, dated April 5,2018: “I have been around my nieces since then
and they are saying that Stanley never touched them in the wrong way.” Doc. 18 at
4-5. This vague and indefinite statement does not constitute “new reliable evidence”
capable of supporting an actual innocence claim.
42

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 43 of 45

Courts look upon recantations with suspicion. United States v. Waters, 194
F.3d 926, 933 (8th Cir. 1999); United States v. Miner, 131 F.3d 1271, 1273-74 (8th
Cir. 1997); United States v. Provost, 969 F.2d 617, 619-20 (8th Cir. 1992).
“[Scepticism about recantations is especially applicable in cases of child sexual
abuse where recantation is a recur-ing phenomenon” such as “when family members
are involved and the child has feelings of guilt or the family members seek to
influence the child to change her story.” Miner, 131 F.3d at 1273-1274 (quoting
Provost, 969 F.2d at 621). See also, State v. Cain, All N.W.2d 5, 8 (Minn.Ct.App.
1988) (noting recantation is “frequent characteristic of child abuse victims”); State
v. Gallagher, 150 Vt. 341, 350, 554 A.2d 221, 225 (1988) (citing Johnson v. State,
292 Ark. 632, 643-44, 732 S.W.2d 817, 823 (1987) (observing the “high probability
of a child victim recanting a statement about being sexually abused”)). Additionally,
“[t]he stability and finality of verdicts would be greatly disturbed if courts were too
ready to entertain testimony from witnesses who have changed their minds, or who
claim to have lied at trial.” United States v. Grey Bear, 116 F.3d 349, 350 (8th Cir.
1997).
Here, Ms. Robinson’s hearsay assertions that one or more of her nieces (the
victims) allegedly told her that “Stanley never touched them in the wrong way” fall
well short of the kind of sworn recantation testimony, from an actual victim, that

43

Case: 5:17-cv-00069-JTR

Docum ent #: 25-0

Date Filed: 03/26/2019

Page 44 of 45

might be deemed to constitute “new reliable evidence” of actual innocence.41
Nothing about the purported hearsay statements of the victims, as filtered through
the lens of Ms. Robinson’s Affidavit, persuades the Court that Carter’s conviction
constituted a fundamental miscarliage of justice.
Accordingly, the Court concludes that Carter’s gateway actual innocence
claim is without merit and cannot serve as a basis for excusing his procedural default
of the federal speedy trial claim he seeks to assert for the first time in this habeas
action.
III. Conclusion
IT IS THEREFORE ORDERED that this 28 U.S.C. § 2254 Petition for Writ
of Habeas Coipus, Doc. 2, is DENIED and this case is DISMISSED, WITH
PREJUDICE.
IT IS FURTHER ORDE RED THAT a Certificate of Appealability is
DENIED. See 28 U.S.C. § 2252 (c)(l)-(2); Rule 11(a), Rules Governing § 2254
Cases in United States District Cc urts.

41 The “actual innocence” gate1 vay exists “to avoid fundamental miscarriages of justice,
not to provide the opportunity for fishi ng expeditions and delay or ... a second trial.” Battle v.
Delo, 64 F.3d 347, 354 (8th Cir. 1995).

44

Case: 5:17-cv-00069-JTR

Document #: 25-0

Date Filed: 03/26/2019

Page 45 of 45

DATED THIS 26th day of March, 2019.

unite:

45

A
JUDGE

Case: 5:17-cv-00069-JTR

Docunent #: 30-0

Date Filed: 04/25/2019

Page 1 of 2

UNITED SI ATES DISTRICT COURT
EASTERN I USTRICT OF ARKANSAS
PINE BLUFF DIVISION
STANLEY J. CARTER
ADC #111939
V.

PETITIONER
NO. 5:17-CV-00069-JTR

WENDY KELLEY, Director,
Arkansas Department of Correctio n

RESPONDENT
ORDER

On April 24, 2019, Petitioner Stanley Carter filed a Notice of Appeal {Doc.
28), along with a Motion for Leave to Appeal In Forma Pauperis {Doc. 27), and a
Motion to Appoint Appellate Counsel {Doc. 29).
The Court, in its Memorandum Opinion denying habeas relief, also denied
Carter a Certificate of Appealability. Doc. 25. For the reasons stated in the
Memorandum Opinion, Carter s Motion for Leave to Appeal In Forma Pauperis is
DENIED, without prejudice. Similarly, Carter’s Motion for Appointment of Counsel
is DENIED, without prejudice.
Having filed a timely Notice of Appeal, Carter has a right to: (a) apply for a
Certificate of Appealability from tie United States Court of Appeals for the Eighth
Circuit; (b) petition the United States Court of Appeals for the Eighth Circuit to be
allowed to proceed in forma paup eris; and (c) request the United States Court of
1

Case: 5:17-cv-00069-JTR

Document #: 26-0

Date Filed: 03/26/2019

Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
STANLEY J. CARTER
ADC #111939
V.

PETITIONER
NO. 5:17-CV-00069-JTR

WENDY KELLEY, Director,
Arkansas Department of Correction

RESPONDENT

JUDGMENT
Consistent with the Order entered this day, the Petition for Writ of Habeas
Corpus, Doc. 2, filed by Stanley (parter is dismissed with prejudice.
IT IS SO ORDERED this 26th day of March, 2019.

unit: S> STATES MAGISTO^ E JUDGE

i
i

